<html>
<title> - Muslims and Minorities in the Military: Changing Demographics in the OSCE Region and Implications for Europe's Security Sector</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





115th Congress                                Printed for the use of the
1st Session             Commission on Security and Cooperation in Europe
________________________________________________________________________


 
                      Muslims and Minorities in the
                   Military: Changing Demographics in
                    the OSCE Region and Implications
                      for Europe's Security Sector
                      
                      
                      
                      
     

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                            JULY 26, 2017
                            
                            
                            
            
            
            
            
            
                               Briefing of the
                Commission on Security and Cooperation in Europe
                
                              Washington: 2017
                              
                              
                              
                              
                              
                              







                Commission on Security and Cooperation in Europe
                          234 Ford House Office Building
                               Washington, DC 20515
                                   202-225-1901
                                 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3655455553765b575f5a185e5943455318515940">[email&#160;protected]</a>
                                 http://www.csce.gov
                                   @HelsinkiComm



                        Legislative Branch Commissioners

              HOUSE                                SENATE
CHRISTOPHER H. SMITH, New Jersey          ROGER WICKER, Mississippi,   
          Co-Chairman                       Chairman
ALCEE L. HASTINGS, Florida                BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama               JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                 CORY GARDNER, Colorado
STEVE COHEN, Tennessee                    MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina            JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                  THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                 TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                     SHELDON WHITEHOUSE, Rhode Island



                        Executive Branch Commissioners

                           DEPARTMENT OF STATE
                          DEPARTMENT OF DEFENSE
                         DEPARTMENT OF COMMERCE
                         
                                   [II]
                                   
                                   
                                   
                                   
                                   
                                   
                                   

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                              [III]
                              
                              
                              
                              
                              
                              
                              
                      Muslims and Minorities in the
                   Military: Changing Demographics in
                    the OSCE Region and Implications
                      for Europe's Security Sector
                     
                              _____________
                            
                              July 26, 2017
                            
                             

                                                                                   Page
                                                                  

                              PARTICIPANTS

Hon. Gwen Moore, Commissioner, Commission on Security and Cooperation in Europe  ...  9
Dr. Mischa E. Thompson, Policy Advisor, Commission on Security and Cooperation in
  Europe ...........................................................................  1
Rozemina Abbasi (United Kingdom), Assistant Head, Armed Forces Targets, Ministry of 
  Defense ..........................................................................  2
Dr. Elyamine Settoul (France), Professor, Institute for Strategic Research at the 
 Military College, French Ministry of Defense ......................................  4
Dominik Wullers (Germany), Economist, Spokesman, Federal Ministry of Defense 
  Equipment, and Vice President of Deutscher.Soldat ................................  4
Samira Rafaela (Netherlands), Organizational Strategy Advisor, Dutch National Police. 5


                                        [IV]




                              Muslims and Minorities in the
                          Military: Changing Demographics in
                           the OSCE Region and Implications
                             for Europe's Security Sector
                           
                                    ----------                              
 
                                  July 26, 2017

             Commission on Security and Cooperation in Europe
                             Washington, DC
                             


    The briefing was held at 11:01 a.m. in room 562, Dirksen Senate 
Office Building, Washington, DC, Dr. Mischa E. Thompson, Policy 
Advisor, Commission on Security and Cooperation in Europe, moderating.
    Commissioner present:  Hon. Gwen Moore, Commissioner, Commission on 
Security and Cooperation in Europe.
    Panelists present: Dr. Mischa E. Thompson, Policy Advisor, 
Commission on Security and Cooperation in Europe; Rozemina Abbasi 
(United Kingdom), Assistant Head, Armed Forces Targets, Ministry of 
Defense; Dr. Elyamine Settoul (France), Professor, Institute for 
Strategic Research at the Military College, French Ministry of Defense; 
Dominik Wullers (Germany), Economist, Spokesman, Federal Ministry of 
Defense Equipment, and Vice President of Deutscher.Soldat; and Samira 
Rafaela (Netherlands), Organizational Strategy Advisor, Dutch National 
Police.

    Dr. Thompson. Good morning. My name is Dr. Mischa Thompson, and 
welcome to ``Muslims and Minorities in the Military,'' a briefing on 
``Changing Demographics in the OSCE Region and Implications for 
Europe's Security Sector'' hosted by the U.S. Commission on Security 
and Cooperation in Europe, also known as the Helsinki Commission. We 
are broadcasting this briefing via Facebook.com/Helsinki, and I hope 
that you will also participate via social media.
    For those of you who do not know, the Helsinki Commission is an 
independent U.S. Government agency focused on human rights, economics, 
and security in the 57 North American and European countries that make 
up the Organization for Security and Cooperation in Europe, or the 
OSCE. The Commission is chaired by Senator Roger Wicker, bicameral and 
bipartisan, and comprised of 21 members of Congress and the executive 
branch, including the U.S. State Department, and is housed in the U.S. 
Congress.
    The OSCE has had a focus on diverse populations, from Roma and 
Jewish populations to national minorities and migrants in Europe and 
the United States, since its inception. This focus has increased in 
recent years with the demographic shift that is taking place on both 
sides of the Atlantic.
    The U.S. Census Bureau predicts that racial and ethnic groups will 
comprise close to 60 percent of the U.S. population by 2060, and that 
by 2031 the majority of the U.S. workforce will be people of color--so, 
for example, Asian, Latino, and migrant populations--which will also 
account for much of the U.S. population growth in years to come.
    In Europe, demographers predict that aging and waning birthrates 
will lead to a decline in workers that will result in increased 
immigration, but also an increased focus on historically underutilized 
talent from Roma, Afro descent, Asian, and other existing diverse 
populations of citizens, as well as migrants that in many countries in 
the European Union are make 5 [percent] to 8 percent of the population.
    Today, we will discuss what these demographic shifts mean for 
security forces on both sides of the Atlantic and the long-term 
stability of the transatlantic partnership.
    I am pleased to be joined today by four members of a European 
delegation in Washington, D.C. to attend a German Marshall Fund 
conference being convened by senior fellow Lora Berg entitled ``Mission 
Critical: Inclusive Leadership for the Security Sector.'' You can find 
the bios of today's panelists in the blue folders and online. And given 
that we will only have an hour, I will begin by asking the panelists a 
few questions, after which we will have time for questions and 
discussion with the audience.
    I would like to welcome Rozemina Abbasi of the Ministry of Defence 
from the United Kingdom; Dr. Elyamine Settoul from the French Ministry 
of Defense; Mr. Dominik Wullers of the German Ministry of Defense; and 
Ms. Samira Rafaela of the Netherlands Dutch National Police, also a 
member of the Caribbean Network of the Dutch police.
    And so, with that, I will actually turn to Ms. Rozemina Abbasi and 
ask if you can just start by telling us a little bit about what the 
demographic makeup looks like in the United Kingdom, and specifically 
how this relates to your role in the Ministry of Defence.
    Ms. Abbasi. Thank you.
    The U.K. population is diverse. At the moment, 80 percent of the 
U.K. population is white and 20 percent is of BAME background. We're 
predicting that, in the next 30 years, that 25 percent of the working-
age population will come from a BAME background. Currently, 31 percent 
of the U.K. primary-school pupils are of a BAME background. When I say 
``BAME,'' I mean people of color, so ``BAME'' stands for Black, Asian, 
and minority ethnic. I appreciate there's some different acronyms 
between Britain and America.
    With that in mind and the changing demographics, the U.K. 
Government has been pretty forward looking, and we've started to look 
at what this will mean and what we need to start doing now to ensure 
that we are attracting the right people going forward. I work for the 
Ministry of Defence. And with the Ministry of Defence, with the armed 
forces, currently they are not representative of the society that we 
aim to serve. The current sort of numbers are that we only have around 
7 percent of the armed forces recruits from a BAME background. And 
female, as well, is around about 11 percent. So the numbers are quite 
low.
    What we have done is place targets upon ourselves to increase the 
number of recruits that are coming in to be from a BAME background, and 
also to increase the female representation, by 2020. And to do that, 
we've designed a program of activity to engage both externally and 
internally. And the sort of motivation behind this is that we want to 
be attracting the best from our society to be joining us, and we also 
want the armed forces going forward to be relevant to the society that 
we aim to serve. With the demographics changing, we want to be able to 
be relevant to the future generations, and also we want to be able to 
have the best. The white population that we currently recruit from is 
diminishing, and going forward the numbers will be even lower.
    I'm not sure how much more time I have or what more information I 
should be going into, or--I can talk continuously about all the 
activities we are doing, but----
    Dr. Thompson. Yes, I was going to say if you actually can talk a 
little bit about some of the activities that you're working on.
    Ms. Abbasi. So what we've done is designed a program of activities, 
and in the first year we conducted extensive research looking into the 
U.K. population that was made up of Asian, Black, Chinese. And what we 
wanted to understand was what the different communities thought about 
the armed forces, and whether they wanted to become members of the 
armed forces, and what the barriers were. And we're still sort of 
working through a lot of that research. It was quite extensive. And in 
it there were some sort of humble truths that we had to face. You know, 
certain factions of society didn't find us as an attractive proposition 
as an employer.
    And then, there's also been other things that we've been looking 
at. Also looking internally, understanding where there may be bias or 
prejudice in our recruitment process. What are we doing with the 
current sort of population that is from a BAME background? You know, is 
retention and progression fair? Do we have positive role models at a 
senior level?
    So it's been a bit of a raw experience looking at where we are at 
at the moment and where we wish to get to going forward.
    One of the most important things about this program of activity is 
that, firstly, we've got the Prime Minister behind us. She herself is 
supportive of the targets. Secondly, we've got our head Secretary of 
State who is, again, hands on in regards to this program activity. He 
actually has quarterly meetings with the army, all three of the 
chiefs--the army chief, the Royal Air Force Chief [RAF], and the navy 
chief--on a regular basis, to understand what work they are doing, and 
then also what progress we're making, you know, on a quarterly basis. 
Our senior leaders are behind the change program, and that in itself 
speaks volumes when you're trying to put through a program of change 
that will probably be uncomfortable for some within the armed forces.
    We have a 190,000-strong workforce, and it is predominantly male 
and it's also predominantly white. And all of a sudden, when you're 
asking a community which is very strong, which has strong values, and 
sees themselves as a family, to start to introduce new people in--
whether female or people from a BAME background--there will be 
resistance at certain levels. And for our program to be effective, we 
really need that buy-in at every level and for people to be supportive.
    Dr. Thompson. Thank you.
    And, Dr. Settoul, I'm hoping that we can actually briefly turn to 
France, in part because you wrote in your 2014 paper--``You're in the 
French Army Now''--that the French military structure has included a 
large number of Muslims ever since the period of colonial conquest of 
North Africa in the 19th century. And so what that suggests is that 
there's been a longer history of Muslim and minority participation that 
I'm hoping that you can tell us a little bit about, and then we can 
come up to the future and talk about what's happening currently now in 
France.
    Dr. Settoul. Yes, as you said, the Muslim presence in the French 
armies has roots in the French colonial history. And I think it's a big 
difference with many other countries, many European countries. The 
first French Muslim regiment was created in Algeria in 1840, so it's 
very ancient. Those regiments have fought with France throughout the 
19th century and the 20th century, sometimes in decisive battles like 
Monte Cassino during the Second World War. So we have a strong 
tradition with the Muslim fighters.
    They brought a youth contribution for the liberation of France 
during the Second World War. Even today, if you look at some regiments, 
like the 1st Regiment de Tirailleurs d'Epinal, you can see on their 
berets an Islamic crescent. So it's original, and it shows the 
importance of this Muslim legacy in the French Army. And I would add 
that it plays a positive role to attract the young French Muslims today 
for recruitment.
    Dr. Thompson. And can you talk a little bit about what the current 
population of Muslims and other diverse populations in France is, and 
what types of measures are currently taking place to recruit?
    Dr. Settoul. Yes. France is characterized by a high level of 
diversity. It has the largest Muslim, Buddhist, and Jewish community in 
Europe. But at the same time, ethnic statistics are forbidden in the 
French context. But the military institution has some information about 
the religious backgrounds of the soldiers, especially because we have 
to manage some things. For example, during the war operations, if a 
soldier dies, we have to know how to manage the body and to respect 
their faith.
    We know, for example, that around 10 percent of the French soldiers 
are Muslims. So it's an opportune number if we compare it to what that 
represents in the society as a whole. Between 5 [percent] and 8 percent 
of the French are Muslims, and they represent 10 percent of the 
military institutions. So we can say that there is an over-
representation of Muslims in the military institution. And I think it 
is linked to the fact that the military institution is very attractive, 
because it is perceived as a meritocratic field. And we could draw a 
parallel between the experience of the Black minorities in the U.S. 
armies and what the French Muslims experience today. They find in these 
institutions the meritocratic fields. They recruit you whatever your 
origin, your color skin or your address. And this is what I have seen 
during my Ph.D. about the soldiers who share an immigrant background.
    Dr. Thompson. Thank you.
    Now, Mr. Wullers, you actually founded in Germany an organization 
called Deutscher.Soldat, and I was hoping you could tell us a little 
bit about why it is that you founded that organization.
    Mr. Wullers. Yes. Good morning, good morning. So thank you very 
much for inviting me here today.
    And, first, I have to send my regards to Ibiza, where my president 
is.
    Actually, me personally, I'm an economist. I was an officer for 13 
years in the German armed forces. So this is more or less something 
that I do in my spare time. And it came to me in 2010, when I returned 
from studies abroad here in the United States. My branch head at the 
time invited me to his office and said that there was a discussion 
raging at the time in Germany about diversity and integration, and 
whether integration as a whole, diversity as a whole, and especially 
migration from Turkey and Arab countries was a failure, and an entire 
failure and a problem for our society. So we founded this initiative, 
Deutscher.Soldat, to use the German soldier of different ethnic or 
cultural descent as a symbol in this discussion to show that 
integration, from our point of view, was indeed a success--that there 
were problems that had to be talked about, but in general integration 
and migration is a success and a chance for Germany.
    So that's the one thing. And over time, being German soldiers of 
color, obviously we were talked to about the subject of racism in the 
German armed forces or the subject of diversity, and that's how we got 
to this subject.
    Dr. Thompson. OK. And can you talk just a little bit about the 
image that we see on the Facebook page when you pull up 
Deutscher.Soldat?
    Mr. Wullers. Yes. So, Germany's probably not the first country to 
come to mind when you think about diversity. Given our history, when 
you talk to countrymen in Germany and you give them the image of 
Deutscher.Soldat, which is a German soldier, most will think of a 
blond, blue-eyed, Nazi probably still, a very pacifist country still, 
and strong resentments against the army and personnel of the armed 
forces. So when we use that, we actively used this connotation that is 
still active with many, many Germans. So when you type in 
Deutscher.Soldat, many would expect a very far right-wing organization, 
and what you see then is, well--soldiers of color and our slogan, 
``Typically German,'' or ``Typisch Deutsch.'' Then we just wanted to 
highlight that today with about 20 percent of our population having 
some kind of migration background, as we say, and among the children 
every third. We are indeed a diverse society today, and it's our job 
and our generation's job to, well, implement that politically.
    Dr. Thompson. Thank you.
    Now, Ms. Rafaela, you are joining us here from the Netherlands, a 
country that has traditionally been known for being, I would say, both 
diverse and tolerant. And I was hoping that you might be able to share 
with us what diversity looks like in the Netherlands. And you mentioned 
earlier that you were part of a Caribbean Network that's within the 
Dutch police, and if you could also tell us a little bit about what 
that network is and why that was actually started.
    Ms. Rafaela. Well, thank you very much for having me here. It's my 
first time in Washington, so I'm really excited.
    Diversity in the Netherlands--well, I think it's definitely 
comparable to how diversity looks like also in the U.K. We have 
definitely a large population with especially a multicultural 
background, and that makes government as a whole in the Netherlands, 
but especially also in the security sector and in the education sector, 
makes them think, OK, how do we actually need to change within our 
organization.
    Because that means--take, for example, our capital city, Amsterdam. 
At least 50 percent of the citizens have a multicultural background. So 
that means that if you look, for example, at government or at safety, 
that we also need to think of strategies, of methods to actually 
diversify our own organization.
    And one of the things to do so is, for example, diversity networks 
within organizations like, for example, the Caribbean Network of the 
police. That is mainly responsible for actually bonding and bridging 
between communities with citizens with an African-Caribbean background, 
to bring in the expertise of the communities, to make sure that the 
organization knows their issues, knows their needs, participates in 
public events, makes sure that you are visible and that you can 
actually affect also the communities. But also to create a safe climate 
inside the organization for multicultural colleagues, so that they can 
feel safe in the first place, and the second place to facilitate them 
in bringing their expertise on what they know on their community. 
That's what, for example, the Caribbean Network does for the 
organization.
    Dr. Thompson. Thank you.
    And before we go to the audience, I did want to talk a little bit 
about the political climate that we've been seeing across Europe, as 
well as in the United States, and what that has meant for some of the 
work that has focused on diverse populations in Europe.
    Ms. Rafaela, since we've already been speaking with you and I know 
from your bio that you've had a strong background in politics--in part 
actually having a portfolio where you focused on diversity--I was 
wondering if you could talk a little bit about what the conversation 
has politically been around diversity in the Netherlands, and if at all 
how this has impacted your work in the security sector.
    Ms. Rafaela. Yes, well, especially it focuses on the emancipation 
and the participation of citizens with multicultural backgrounds, but 
especially also discrimination, exclusion in the workforce, but also 
LGBT-related issues, too--so LGBTs with a multicultural background, for 
example, women's participation. And I think what I try to do myself, at 
least in my own political party, is--what I've seen is that it is 
extremely important that people are being heard--that's a fundamental 
right--and to make sure that politics, but also more than politics, 
understand these specific issues.
    It is extremely important to organize the events and the meetings 
on these specific issues, where you get the storytellers together, 
where you get the influencers together, but also sometimes the--
[inaudible]--together so that they just feel and understand what the 
issues are of specific target groups in our society. That's basically a 
success formula which I use myself to inform my political party, 
political colleagues on specific issues.
    Dr. Thompson. And, Dr. Settoul, I was hoping that you could talk a 
little bit about what the political climate has been like in France, 
and what type of impact that that's had on the security sector as well.
    Dr. Settoul. As you mentioned, the topic of Islam is very sensitive 
in France--it's of course linked to the terrorist attacks, the recent 
terrorist attacks, but it's deeper than those last attacks. During the 
last decade, we have also had a lot of debate about Islam, about the 
minarets, about the halal--so Islam is a topic, a very sensitive topic.
    I think that the organization of Islam within the army is much more 
peaceful than in the rest of the society. And we could make a link 
between these good situations and the creation of a Muslim chaplaincy, 
because France has created its first Muslim military chaplaincy in 
2006, and it has improved a lot the management of the diversity, the 
management of Muslims within the military bases. Today, the Muslim 
soldiers can respect all their needs. You can be a French Muslim in the 
military easily, that's what I want to say.
    We have about almost 40 Muslim chaplaincies. I think we have the 
greatest Muslim chaplaincy in the Western countries, U.S. included. In 
the U.K., you have just one, I think. In the U.K., you just have one 
Muslim chaplaincy.
    Ms. Abbasi. We have one, yes.
    Dr. Settoul. Yes. And the Germans are thinking about to launch.
    Mr. Wullers. [Off mic.]
    Dr. Settoul. Yes. But you are thinking about it, and--I know; I 
have some contacts in Germany. So, yes, France seems to be well ahead 
in comparison to other countries. But we have also many issues 
regarding discrimination, the lack of diversity in the high ranks of 
military institutions, so we have to be careful, to pay attention to 
those questions.
    Dr. Thompson. Thank you.
    With that, we are at the halfway mark, and I did want to take some 
time to open up the panel to questions from the audience. Yes, we a 
have a question in the front, and we have a microphone that will be 
brought to you.
    Questioner. Thank you. My name is Alex Tiersky. I also work for the 
Helsinki Commission. I'm the political/military affairs advisor there.
    Thank you very much for your presentations. I have questions for 
Ms. Abbasi and Dr. Settoul.
    Ms. Abbasi, it's wonderful to hear that the Ministry of Defense in 
particular has instituted targets, and that those targets have the 
support of senior leadership. I think that's absolutely crucial. I'm 
curious to know what incentives there are to meet those targets, as 
well as any kinds of penalties for not meeting them in a certain time 
frame. I'm curious whether there are programs to reach potential 
candidates for service in the security sector before that moment of 
their choice of whether or not to join, or whether they apply and are 
accepted or not. And since you mentioned the extensive demographic 
research that you conducted, I'd be very curious to hear what 
alternatives these target populations you're looking for are choosing 
instead of service in the security sector.
    Dr. Settoul, if I could ask you as well, I was fascinated to hear 
your presentation on the huge and very important contribution of 
Muslims throughout recent French history or longer French history, 
including the liberation of France in the Second World War. Could you 
speak to how well that contribution is understood by French society at 
large, whether there are any efforts to explain that contribution to 
society at large, including by having, whether it's Muslims or 
minorities, in key public-facing roles in the armed forces?
    Thank you.
    Dr. Thompson. Thank you.
    Ms. Abbasi?
    Ms. Abbasi. Thank you for your questions. In regard to the 
recruitment targets, the recruitment targets were actually placed upon 
the department by the Prime Minister. So, in a sense, the boss has told 
you to do something, and I guess you will have to do it. And if you 
don't I'm not quite sure what the penalty will be, but I don't think 
the Prime Minister will take kindly to us not achieving the targets.
    But in all fairness, the recruitment targets are very tough on us. 
It's to do with, generally, the recruiting environment and society's 
general desire to join the armed forces. And they are challenging, but 
we are working very hard to do it.
    In regards to the incentive to meet them, we at every senior level, 
we appreciate that the targets are important for us. We want to recruit 
the best, regardless of what their ethnic makeup would be. And we 
recognize that, going forward, we need to be able to recruit from a 
greater pool if we want to keep the inflow of the right type of people 
we need to make ourselves more attractive to a wider section of 
society.
    What are we doing to ensure that people join at various stages? 
We're doing outreach activities. In the U.K., our armed forces are 
split between the RAF, the Navy, and the Army, and each of the services 
have their own recruitment processes and outreach. And also, each of 
the services also have different public perceptions. So, interestingly, 
the RAF is viewed very positively by the general population, especially 
the BAME, whereas the army tends to be viewed more negatively--just 
because when you're associating which of the service reflects more of 
the military, it's the army, where the RAF always is seen as more of--I 
think it's just viewed more positively because they're not viewed as 
close combat.
    And what we're doing is--depending on the service--we're doing 
outreach activities with schoolchildren so that they start thinking 
about it early. Our research has shown that if you are looking for 
future recruits, someone has to start thinking about joining at the age 
of 13. That's the age that we need to start letting our future recruits 
know that the armed forces is a potential option.
    And where are our competitors? Actually, everyone is our competitor 
at the moment in the U.K. All the top four big consultancy firms have 
placed upon themselves recruitment targets from BAME backgrounds. You 
know, the National Health Service, law firms, everyone is aware of what 
the demographic changes are, and everybody is also aware of the 
benefits that diversity brings, especially diversity of thought, and 
competition is pretty fierce. And we also, within the military, 
appreciate that as well, and that's why we're investing heavily in a 
program to ensure that we can recruit the best going forward.
    Dr. Settoul. OK. Thank you for your question.
    To be honest, most of the French ignore this rate I gave you about 
this number of 10 percent of French Muslim soldiers, I think firstly 
because it's not in our culture to mention the religious 
characteristics of the individuals, religious and ethnic. As I told 
you, we don't have any kind of ethnic statistic in France. It's 
deeply--[inaudible]--in our culture. And secondly, because 
unfortunately Muslims have a negative image in the media, and for many 
French it reminds them of the problem of the banlieue, what you call 
the suburbs [inner city]. But in France, in French, the French word has 
a negative connotation. ``Banlieue,'' it's mainly the problems and 
discrimination and so on and so on.
    But through my research and my studies, I try to highlight this 
phenomenon of overrepresentation of Muslims. And it's a way for me to 
deconstruct the idea of the clash of civilizations, which has become 
very important in the minds of the French population and I would say 
the European one.
    Dr. Thompson. OK, thank you.
    Do we have any other questions from the audience at this time? OK. 
Then Dr. Settoul, can you talk a little bit about how your research was 
actually received?
    Dr. Settoul. It was not easy because in France, you know, we don't 
have any kind of ethnic statistics. And when I did my Ph.D. during 2005 
and 2010, I carried out 50 interviews. I made six internships in the 
French suburbs, in the centers of military recruitment in Lyon, 
Marseille and Saint-Denis, in the suburb of Paris. And it was not easy 
because some of the officials I've met, they told me, why do you want 
to focus on the ethnicity of our soldiers? Here in France we don't 
recognize any kind of ethnic statistics and any--so I try to explain to 
them that it's important to understand the social trajectories, to 
understand the experiences within the regiments, because, of course, 
theoretically we don't recognize the ethnicity, but the soldiers in 
their daily life can feel discrimination because of their color skin 
and so on and so on. So I try to be very pedagogic and to explain the 
interest of such a study to improve the management of the diversity 
within the military institution.
    Dr. Thompson. OK, thank you.
    We've actually just been joined by Congresswoman Gwen Moore. Just 
please let me know if you'd be interested in making any remarks at this 
time or later.
    Are there any additional questions from the audience at this point? 
Yes.
    Questioner. So, if I may, I have a question about, so President 
Trump's tweet this morning, if you have any reaction or comments to 
make about it. He just announced that transgender people won't be 
allowed in the military anymore--what are your comments about that?
    Thank you.
    Dr. Thompson. Thank you very much for your question. Is there 
anyone on the panel that would like to take this question at this time?
    Mr. Wullers. Thank you, I heard about that this morning, too. And 
just to make clear, I am the chief spokesman for the German Arms 
Procurement Office, but I'm here in a private capacity, so whatever I 
say is my personal opinion.
    I personally think that being able to serve your country in a 
military or other capacity is one of the greatest goods a society has 
to offer. It's also a sign and a revelation, actually, to my mind to 
see who a society invites to serve them. And so I think that the 
limitations on who I would invite and who I would give the chance to 
serve my country should be as low as possible, and to make them as 
necessary as possible. For example, if you are in a combat squad, there 
are certain limitations that working in a combat squad have. But I 
would really want to make this case that you should really limit 
yourself to these essential requirements. So, in the case of 
transgender people or the transgender community in general, I 
personally think I do not feel that it's the right thing to do to 
exclude them from the honor to serve.
    Ms. Moore. Thank you so much, and I am so sorry to be late for this 
very important hearing.
    I do know that last week the House of Representatives had an 
amendment to the defense authorization bill that would have prevented 
service of transgender folk and medical care for transgender folk in 
the military, and that amendment was defeated in the House of 
Representatives. So, very clearly, it was a bipartisan rejection of 
this notion. And so I am not clear as to why this tweet came out this 
morning, except to say that it was a day that ended in the letter Y. 
But I do think that it just speaks volumes to the continued struggles 
that we're having to have an integrated society, and a military is 
often the most important place to reflect consensus and solidarity in a 
society. So I do find it very disturbing.
    Ms. Abbasi. The U.K. military fully supports people from all 
backgrounds, and we have a positive contribution from the LGBT 
community, and we have people serving who are from a transgender 
background. They are soldiers and they do a wonderful job, so I don't 
understand personally why we would put in place anything that 
discriminates against anybody who wishes to serve for their country.
    Ms. Rafaela. Yes, and I'd like to add to that. Take, for example, 
the Dutch police. One of the most successful diversity networks of the 
Dutch police, for example, is the LGBT network, and because we think 
that we need to know what their needs are and what their issues are. 
They bring in the expertise that we otherwise won't have. So, also for 
the Dutch security sector, the LGBT community is an extremely important 
community, and exclusion of the LGBT community is just not done.
    Dr. Thompson. Thank you.
    Do we have other questions from the audience at this point?
    Questioner. All of you have talked about how you think that 
transgenders should be allowed in the military. But what do you think 
when a country like the United States, with a large percentage of the 
population that doesn't agree with that? What do you think the United 
States should do to either change their opinion or sort of push the 
agenda of transgenders in the military?
    Ms. Rafaela. Well, one of the most important things is that there 
is commitment in the top, that there are senior and top leaders that 
are actually saying--that are not like only saying that diversity is 
important, but also practice diversity. So it would be really helpful 
if--also for the recruitment and the selection methods, that they look 
specifically for people with a LGBT background and get them into 
leadership positions within the security sector.
    And for example, my own organization is actually making space right 
now for people in management with a diverse background, and also with 
an LGBT background, to counter the issue that you are addressing here.
    Mr. Wullers. Thank you very much for the question. That is 
something that I myself have thought about a lot, because what is 
behind the question is what I like to call the ``enough'' movement--
that is, essentially, I think all over Europe right now, as well as we 
can see with all the election results, which is that there is a 
fundamental backlash against topics such as diversity, LGBT. And many 
people, especially conservative people, that feel like it's enough now, 
hence we should stop creating more and more diversity-centered topics 
and issues and policy.
    And I personally don't have a perfect answer to that. But I think 
what I've experienced in the army is that as soon as you get to know 
people, all the political ideological struggles, they disappear, 
basically. So if you are deployed to Afghanistan, you are in a unit, 
and you are under fire, you do not care whether the man or the woman 
next to you had a different sexuality prior, or is Muslim, or whatever. 
You just care that his or her rifle is pointed in the same direction as 
yours.
    Dr. Thompson. Thank you.
    Are there other questions from the audience?
    I wanted to talk a little bit more with Ms. Rafaela. If you could 
just talk to us a little bit more about the police, because a lot of 
the conversation has really focused more on the military. If you could 
talk a little bit about some of the actual concrete policies that you 
all have implemented within the police within Dutch society.
    Ms. Rafaela. Well, my personal opinion is that I think a great 
method of the Dutch police is the use of community policing. And that 
is not only like knowing your community, but also engaging in the 
community, getting to know your citizens, investing in knowledge 
concerning their backgrounds, their needs. And what I see, for example, 
Dutch police officers doing is that they literally step into houses, 
into cultural centers to meet with people. They participate in public 
events. They make sure that they are visible. They are trying to 
attract different groups, talk to them about their issues, talk about 
working for the police, for example. So I think that is a great best 
practice of what I see Dutch police officers doing.
    And then the second thing is, again, the commitment at the top. We 
have the top actually saying/stating that diversity is really 
important. They really want to accelerate the motion, make the motion 
happen. And that's a second thing that is, I believe, really 
successful.
    But still, there remains a challenge. And that remains a challenge 
when it comes, for example, the legitimacy and trust in the police 
organization within, for example, multicultural communities. That is 
something that my organization is really investing in by saying that we 
need to attract more diverse employers. And that also means that they 
need to be in the top, so we need to make space. We need to think of 
leadership programs. The diversity networks themselves that are already 
participating in communities and trying to attract multicultural 
people, but also people with, for example, LGBT backgrounds, you name 
it, to come work for the police.
     I'd say these are the three concrete examples now.
    Ms. Moore. I want to revisit the question that you asked about the 
majority of Americans not wanting transgender people to serve in the 
military. The reason I didn't respond immediately, because I just 
didn't accept that premise as being true. And so I've been up here 
googling a little bit, and I have data that's probably dated, but I 
don't think the majority of Americans do not want transgender people--I 
don't--I'm sorry----
    Questioner. Why does it seem that way?
    Dr. Thompson. He said why does it seem that way, then?
    Ms. Moore. It may seem that way, but polling data don't support the 
conclusion that they don't want them to serve. I know there's a little 
different mix on whether or not people want you to use the same 
bathroom.
    But I do think that when I think about Chuck Hagel, former United 
States Senator, a Republican, had reached the conclusion that at some 
point it's inevitable that transgender people are going to serve in the 
military, the same as was the case with people with LGBT designation. 
And I think that, as our--one of our guests here--and I'm sorry, I 
can't see your name--that this is where leadership comes in. I think 
that that's probably the most unfortunate thing about the President's 
tweets this morning, is that it's not demonstrating the kind of 
leadership that we need.
    And, as Martin Luther King Jr. said, injustice anywhere is 
injustice for us all. So the minute we start coming up with the people 
that we would agree to exclude, next it'll be you--[laughs]--you know, 
because somebody will disagree with handsome young men like you being 
in the military.
    But on the serious side, I think that when you started talking 
about people who have the character and the willingness to serve their 
country, to lay their lives on the line, I think it is very egregious 
for us to put these kinds of false litmus tests in front of them. And 
most Americans agree that it--most Americans, quite frankly, avoid 
military service and go way out of their way not to do it. So we 
shouldn't stand in the way of someone who's brave enough to do that.
    Thank you, and I yield back.
    Dr. Thompson. Thank you.
    And Dr. Settoul wanted to address the question on police versus 
military in terms of diversity efforts.
    Dr. Settoul. Yes. Just to draw a parallel between the police and 
the military institutions, during my Ph.D. research I have met many 
young people who were attracted by a military career but not by a 
police one, because this institution is offensing as a racist 
institution. And to be honest, it's not totally wrong because, 
according to the last surveys, we know that 60 percent of the members 
of the French police have voted for Marine Le Pen, the extreme right 
candidate. So this makes the military institution much more attractive 
among these ethnic minorities.
    Dr. Thompson. We have a question that came in from Facebook that 
pretty much talks about the U.S. military being in the forefront of 
advancing rights and equality in the United States. And the question 
was asking for the panelists whether or not the military has actually 
been the forbearer of advancing rights and equalities in Europe as 
well. And I should say the Facebook question was in the context of this 
tweet coming out this morning, referring specifically to transgender 
individuals and the U.S. history of the military with African American 
and other diverse populations being seen as somewhat of an equalizer. 
So, with that, I think the question is whether or not the military has 
been seen as a place where rights have been actually advanced in 
Europe.
    Thank you.
    Ms. Abbasi. The U.K. military has a very clear policy on LGBT, and 
we don't discriminate. I'm not quite sure if I can say, in fact, the 
military are sort of at the leading front. I think in some areas the 
military is slightly constitutional, and they have their own set of 
rigid polices in place which take some time to overcome. But at the 
moment we are very supportive of LGBT persons, and we have a number of 
people who have gone through the process of gender change and are 
serving. We've opened up our ground combat roles to females only 
recently, and one of the first females to join was someone who has gone 
through the transgender change process. So we're quite proud of the 
diversity we have.
    Are we at a stage where we can comfortably say we don't have to do 
anything else? That's not true. We don't have senior role models from 
various backgrounds. And I think there's a lot that we can do, and we 
need to start thinking about retention and progression. Many times a 
lot of our policies concentrate on people, bringing them in and keeping 
them, I would say, at low ranks. That then doesn't really inspire/
motivate them to stay, and also doesn't create the positive environment 
that we want to attract future candidates. So now I think a lot more 
thought needs to go into what are we doing internally to ensure that we 
have leaders right at the top that come from all types of backgrounds. 
And it's not just LGBT. It's not just female. It's disabled people; 
they can't serve in the military, but in other civilian posts. But 
also, you know, social mobility is also very important. People need to 
come from all sorts of various backgrounds.
    Thank you.
    Dr. Thompson. Thank you. And do we have any other closing remarks 
from panelists as we--oh, sorry----
    Ms. Moore. Well, I suppose just to be responsive to the Facebook 
questioner, I hate to seem redundant, but again, the desegregation of 
the United States military occurred almost--I mean to date in July of 
1948. It was by executive order, so it was President Truman signing an 
executive order because he didn't believe that legislation would make 
it through Congress to desegregate the United States military. And that 
initiative was taken before the country was really ready for it. After 
the Holocaust and the horrific events surrounding the massacre and 
murder of Jews, I think the American leadership started to examine its 
own racism. And certainly just another reason why I think that this 
morning's tweets were retrograde with where Americans want to present 
and the leadership that we want to provide in the world.
    Mr. Wullers. Yes, and just maybe from the German perspective 
regarding that, since Germany is, I think, in contrast to the other 
three European countries here, blessed with a very short colonization 
period. So we were last and first to leave the table. And so Germany 
did not have much migration from other countries until we invited guest 
workers from Turkey and Greece and other countries. And I have to say, 
yes, generally it has been a possibility for social mobility.
    So, for example, if you look at the two campuses of the two federal 
armed forces universities in Hamburg and Munich, you'd see about, I'd 
say--not statistically proven but from my empirical observations--30 
[percent] to maybe even 40 percent of cadets with some sort of 
diversity background. But if you look at retention rates and like 
career changes on who moves up, that's actually--those are actually 
quite low numbers. So, yes, generally speaking, there's some 
possibility for social mobility, and in that way the armed forces in 
Germany do integrate in a large way. But there are still things that 
leadership has to acknowledge and then to change, and that's, I think, 
the strategic aspect.
    Dr. Thompson. Thank you. Samira?
    Ms. Rafaela. Yes, and also for the Netherlands I see definitely 
possibilities and opportunities. But retention, that's an extremely 
important one, and I think that also asks from our leaders that they 
look differently at diversity, they look differently at talent. So, 
employees--people with, for example, a diverse background--they bring 
in specific expertise. And it's just not something they bring in, it's 
an expertise, it's a competence. It's also needed that leaders look 
differently in their organization at people with specific expertise and 
specialism. And when it comes to retention, also, cultural changes are 
really needed in your organization, and not only changes but really 
cultural shifts.
    So then I'm talking about mindset, attitude, the kind of 
conversations we have coming from different perspectives in 
conversation. There's no one size fits all. And that will make and 
hopefully allow that people will stay in your organization and can 
actually bring in their expertise, and that leaders can actually look 
at it in terms of this as a competence; this is not just an employee 
being diverse, but this is an employee with expertise and a specialty, 
and we need him or her or whoever.
    Ms. Abbasi. I just wanted to add one thing. I think what is really 
important for any Diversity and Inclusion [D&I] program is to have the 
support of the majority. One of the sort of obstacles or blockers is 
that we can invest as much money as we want and we can put programs in 
place, but if the majority are not behind the program and are not 
acting in good faith, then it's really hard to embark upon these change 
programs. So we can try to increase the number of females or BAME 
personnel, but if the people within will give them a tough time or will 
not give them the space to work and progress, that will make it very 
difficult for them. And I think when we're looking at policies and also 
looking at how to implement, we have to also think about the majority 
and what we need to do to put them or have their buy in into the 
process.
    Dr. Thompson. I want to thank you all for sharing your experiences 
from Europe on this very important issue. It is an issue that our 
Helsinki commissioners have been working on for some years now. Close 
to a decade ago, one of our commissioners actually helped to introduce 
the Military Diversity in Leadership Commission to really look at, for 
example, where the United States was particularly on this issue. It 
continues to be something that we are working on.
    To that point, our Commissioner Senator Ben Cardin recently 
introduced in April the National Security Diversity and Inclusion 
Workforce Act, which he a few days ago worked with his Republican 
counterpart, Chairman Senator Corker, to have diversity provisions 
included in the Senate authorization bill. And that was this year, and 
last year. So I would say it's an issue that we continue to be seized 
with in the United States as well.
    The reasoning, of course, is I think what you heard from most of 
the panelists here. As we are experiencing demographic change on both 
sides of the Atlantic, it's something that we are seeing as being 
crucial for future workforces--these workforces that will also be the 
underpinning of our security forces on both sides of the Atlantic, and 
part and parcel to the long-term stability of the transatlantic 
relationship.
    And so, with that, I would like to thank you all for being here 
today. And, as we said, we were on social media, so if there are 
follow-up questions we will also take time to review those as well.
    Thank you very much. [Applause.]
    [Whereupon, at 12:01 p.m., the briefing ended.]

                             [all]
                             
                             
                             


            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                            * * *

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                           * * *

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                           * * *


                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
